No. _______
IN THE SUPREME COURT OF THE UNITED STATES

CHRISTOPHER MICHAEL SEVIER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Kevin Joel Page, do certify that on this date, October 2, 2020, pursuant to Supreme Court
Rules 29.3 and 29.4, I have served the attached Motion for Leave to Proceed in Forma Pauperis and
Petition for a Writ of Certiorari on each party to the above proceeding, or that party's counsel, and
on every other person required to be served. I have served the Supreme Court of the United States
via Federal Express, priority overnight. The Solicitor General and the petitioner were each served
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid. Assistant United States Attorney
Leigha Simonton has been served by email, per her request.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

1

Leigha Simonton
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, Texas 75242
leigha.simonton@usdoj.gov

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

/s/ Kevin Joel Page
KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

Counsel of Record

2

